WAIVER

Supreme Court of the United States

No. 19-126
Gary Oram v. City of Dillon, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Cathe Heaeard
—
g ervey ave 2
fA lama member of the Bar of the Supreme Court of the United States.
OG Iam not presently a member of the Bar of this Court. Should a response be requested,
the response wil be filed by a Bar member.
Signature Loh, Wie
Date: 8-¥- 2014

(Type or print) Name.
OMr. OMs. Mrs. O Miss

Firm. Poore , Rote + “Rabinson, ec.

Address LB4L_ Itavii'son Avenues
City & State “Bu He M our kere Zip 591d!

Phone (40t2) 447-1 Ao

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Gas Oraw
Witliave Crowl _
Natasha Prinaey doves

Tracey Me rabbor Tdhusan—

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
